     Office of Inspector General
DEPARTMENT OF HOMELAND SECURITY


      Audit of Management Controls Over
   Automated Commercial Environment (ACE)
               Contractor Billings




             Office of Audits

OIG-06-66                   September 2006
                                                                        Office of Inspector General
                                                                        U.S. Department of Homeland Security
                                                                        Washington, DC 20528




                                         September 29, 2006

                                              Preface


The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector General
Act of 1978. This is one of a series of audit, inspection, and special reports prepared as part of our
oversight responsibilities to promote economy, efficiency, and effectiveness within the department.

This report assesses the internal controls related to the review and approval of contractor invoices for
Bureau of Customs and Border Protection’s (CBP’s) Automated Commercial Environment contract.
It is based on interviews with employees and officials of relevant agencies and institutions, direct
observations, and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our office, and
have been discussed in draft with those responsible for implementation. It is our hope that this
report will result in more effective, efficient, and economical operations. We express our
appreciation to all of those who contributed to the preparation of this report.




                                              Richard L. Skinner
                                              Inspector General
Table of Contents/Abbreviations

Executive Summary ...............................................................................................................................1
Background ............................................................................................................................................1
Results of Audit .....................................................................................................................................3
     CBP Review of Invoices..................................................................................................................3
     Conclusion .......................................................................................................................................9
     Recommendations............................................................................................................................9
     Management Comments and OIG Analysis ..................................................................................10
     Award and Incentive Fees..............................................................................................................10

Appendices
     Appendix A:             Purpose, Scope, and Methodology .......................................................................12
     Appendix B:             Management Comments.......................................................................................14
     Appendix C:             Invoice Procedure Steps .......................................................................................18
     Appendix D:             IBM System Diagram...........................................................................................19
     Appendix E:             Invoice Review Checklist.....................................................................................20
     Appendix F:             Award and Incentive ............................................................................................22
     Appendix G:             Major Contributors to This Report.......................................................................23
     Appendix H:             Report Distribution...............................................................................................24

Abbreviations
     ACE              Automated Commercial Environment
     CBP              Bureau of Customs and Border Protection
     DCAA             Defense Contract Audit Agency
     DHS              Department of Homeland Security
     eCP              e-Customs Partnership
     GAO              Government Accountability Office
     G&A              General and Administrative
     IBM              International Business Machines
     JTR              Joint Travel Regulation
     ODC              Other Direct Costs
     OIG              Office of Inspector General
     POP              Period of Performance
     WBSID            Work Breakdown Structure Identification
OIG
Department of Homeland Security
Office of Inspector General

Executive Summary
                    The Bureau of Customs and Border Protection (CBP) is developing the
                    Automated Commercial Environment (ACE), a new cargo processing system
                    that was initiated to modernize the targeting, inspection, enforcement, border
                    security, revenue collection, and trade statistics processes for all cargo
                    entering and leaving the United States. In August 2001, CBP awarded the
                    ACE development contract to the e-Customs Partnership (eCP), a coalition of
                    contractors headed by the prime contractor, International Business Machines
                    Global Services (IBM). ACE is scheduled for completion in September 2011
                    at an estimated cost of $3.0 billion. As of May 2005, CBP had paid eCP over
                    $760 million. The CBP Cargo Systems Program Office (Program Office)
                    manages the ACE development and shares responsibility with the Contracting
                    Office for the review and approval of eCP’s invoices.

                    The overall objective of the audit was to assess the internal controls related to
                    the review and approval of ACE contractor invoices. The audit focused on
                    two specific questions: (1) Were the procedures, processes, and internal
                    controls adequate to verify the accuracy, reliability, and completeness of
                    contractor invoices prior to payment? (2) Was the process for evaluating the
                    quality of contractor performance and related award and incentive fee
                    payments effective?

                    CBP’s internal controls for the review and approval of invoices were not
                    adequate. Specifically, (1) written guidance describing review procedures
                    were not sufficiently detailed, (2) reviewers did not always document the
                    review activities performed, and (3) CBP did not sufficiently research the
                    causes for issues identified during reviews. Internal controls over the process
                    for evaluating contractor performance and related award and incentive fee
                    payments were adequate. We recommended CBP streamline and strengthen
                    the internal controls over the invoice review process and request the Defense
                    Contract Audit Agency (DCAA) to perform an incurred cost audit. CBP
                    concurred with the recommendations.

Background
                    CBP receives one eCP invoice per active task order each month. The ACE
                    contract is comprised of 21 individual task orders. As of May 5, 2005, 8 task
                    orders were active. CBP contracted with Robbins-Gioia to assist in the day-
                    to-day management of ACE contract operations. The Program Office has
                    assigned an Acquisition Director to manage each task order. In addition, a

    Audit of Management Controls Over Automated Commercial Environment (ACE) Contractor Billings

                                                Page 1
                 Business Manager from Robbins-Gioia works with each Acquisition Director.
                 Together, the Acquisition Director and the Business Manager perform the
                 technical review of an invoice.

                 The Contracting Office entered into a time and materials contract with
                 Stratecon LLC to provide contract administration support services for the
                 workload associated with eCP. Stratecon LLC contract services include
                 reviewing and evaluating monthly invoices by performing the financial review
                 of an invoice for the Contract Officer.

                 During the initial three days of an invoice review, the Contracting Office
                 verifies the arithmetic totals and ensures that the invoice is in the correct
                 format. If there is an arithmetic error or the format is incorrect, the
                 Contracting Office will return the invoice to eCP. Otherwise, the Contracting
                 Office and the Acquisition Directors will perform their respective reviews.
                 The Contracting Office staff compiles problems found during the invoice
                 reviews into an issues log and provides a copy of the issues log to eCP. After
                 receiving eCP’s responses to the issues, the Contracting Office, the Program
                 Office, and the Acquisition Director then make the final recommendation for
                 approval, suspension, or rejection of payment to the Contracting Officer.
                 Based on the recommendation, the Contracting Officer makes a determination
                 to reject, accept, or partially pay the invoice. If approved, the Contracting
                 Officer prepares an approval letter that is sent together with the invoice and
                 supporting documentation to the Indianapolis Finance Center by the 26th day
                 from the invoice receipt date. This allows the invoice to be paid within the 30
                 days required by the Prompt Payment Act. See appendix C for a detailed
                 diagram of the Invoice Procedure Steps.

                 The Government Accountability Office (GAO) Standards for Internal Control
                 in the Federal Government, dated November 1999, states that internal controls
                 are comprised of the plans, methods, and procedures used to meet an
                 organization’s mission, goals, and objectives. The procedures should provide
                 reasonable assurance that the objectives of the program are accomplished.
                 The standards require management to continually assess and evaluate internal
                 controls to assure that the control activities being used are effective and
                 updated when necessary. The standards also require that all transactions and
                 other significant events of the internal control systems be clearly documented,
                 and that the documentation be readily available for examination.

                 Prior Audits

                 DHS and DCAA have a memorandum of understanding that allows CBP to
                 request audits from DCAA. However, DCAA audits major contractor systems
                 for all federal contracts, not specifically the ACE contract. DCAA conducted
                 an incurred cost audit for IBM’s FY 2002 incurred costs. In addition, DCAA
Audit of Management Controls Over Automated Commercial Environment (ACE) Contractor Billings

                                           Page 2
                    reviewed IBM’s internal controls in 2003 for its purchasing system, the
                    budget and planning system, the billing system, and the labor system. All
                    DCAA audits concluded that IBM’s internal controls were adequate.

                    The Program Office Quality Assurance Team conducted an audit of the
                    invoicing process in November 2004, which found issues similar to our audit
                    results. Quality assurance audits aid program management in the monitoring
                    of ACE processes. The purpose of the audit was to ensure that the invoicing
                    process reflected current Program Office policy and that the processes were
                    institutionalized and generating their intended value. The quality assurance
                    report found that the documented processes had not been updated to reflect
                    “how business is currently done.” The report also noted that the documented
                    processes and procedures do not include the “low-level details covering the
                    day-to-day activities” for the invoicing process.

Results of Audit
     CBP Review of Invoices
                    CBP’s internal controls for the review and approval of invoices were not
                    adequate. Specifically, (1) written guidance describing review procedures
                    was not sufficiently detailed, (2) reviewers did not always document the
                    review activities performed, and (3) CBP did not sufficiently research the
                    causes of issues identified during reviews. This occurred because CBP
                    management did not adequately monitor invoice review operations.
                    Consequently, CBP risks not detecting invoice errors or irregularities.

                    CBP’s existing written standard operating procedures for the review and
                    approval of contractor invoices were contained in two documents: Invoice
                    Review and Approval Procedures and the Invoice Review and Approval
                    Process. Together, these documents contained the specific steps for reviewing
                    and approving invoices and described the activities, products and staff
                    positions that implement the process. The Invoice Review and Approval
                    Procedures include one checklist for the financial review and one checklist for
                    the technical review. The Contracting Office staff is responsible for
                    performing the financial review of invoices and the Program Office
                    Acquisition Directors and Business Managers are responsible for performing
                    the technical review of invoices.

                    Written Guidance
                    The standard operating procedures for the verification of five major cost
                    elements did not provide reviewers with sufficiently detailed guidance to
                    effectively and consistently verify the accuracy, reliability and completeness
   Audit of Management Controls Over Automated Commercial Environment (ACE) Contractor Billings

                                              Page 3
                 of invoices. The five major cost elements reviewed included direct labor
                 hours, inventory purchases, billable overhead, general and administrative
                 expenses, and fixed contract fee.

                 Direct Labor Hours

                 CBP’s written standard operating procedures for the verification of labor
                 hours were incomplete and did not provide sufficient guidance to invoice
                 reviewers. In addition, some written procedures were duplicative or could be
                 strengthened to be more effective.

                 Below are two examples of incomplete written procedures that did not
                 adequately describe how to review invoices.

                    •   Reviewers verified labor hours on an invoice by comparing the
                        Customs Labor and Ledger Report to the labor hour details in the
                        invoice package. However, the procedures lacked specific instructions
                        for how to use the Customs Labor and Ledger Report to verify the
                        labor hours on an invoice. The written procedures did not describe the
                        methodology, documents, or systems to verify the labor hours on an
                        invoice. For example, the procedures did not explain which specific
                        sections of the Customs Labor and Ledger Report the reviewer should
                        compare to the invoice.

                    •   The written procedures for the financial and technical review of an
                        invoice required the reviewers to verify that the labor charges for IBM
                        and subcontractors were not previously billed. The procedures do not
                        describe or explain how the reviewer could detect duplicate charges.
                        The Contracting Office staff said they would detect duplicate charges
                        only “by luck.” This is important since CBP frequently receives
                        invoices from eCP that include labor charges for work performed by
                        subcontractors six or more months before the invoice date.

                  The procedures required both the financial and technical reviewers to
                  perform identical steps related to the verification of labor charges. Duplicate
                  procedures decrease the effectiveness and efficiency of invoice reviews.
                  Examples of identical procedures performed by both the financial and
                  technical reviewers include:

                    •   “Are all labor hour anomalies (i.e. >300 hours and/or prior period
                        adjustments of >100 hours) sufficiently explained?”

                    •   “Is the period of performance unique to all other billings?”


Audit of Management Controls Over Automated Commercial Environment (ACE) Contractor Billings

                                           Page 4
                     •   “Is the period of performance for all labor hours within the contract
                         period of performance?”

                 The procedures required the Contracting Office staff to perform certain
                 invoice procedures that were not effective. For example, the procedures
                 required the reviewer to verify the labor hours for at least one employee per
                 vendor on an invoice. However, some invoices contain labor charges for
                 more than 200 employees. In our opinion, verifying the labor hours for only
                 one employee per vendor is not sufficient to deter or detect possible errors.
                 Selecting larger employee samples would increase the likelihood of deterring
                 or detecting errors or possible misuse, help management identify significant
                 patterns or trends and make the review of labor hours more effective.

                 Inventory Purchases

                 The Contracting Office staff performed two steps for reviewing inventory
                 purchases that enhance accountability of property. These two steps were not
                 included in the written guidance.

                 •   The Contracting Office staff verified the classification of inventory items
                     to ensure that accountable property was correctly classified.

                 •   The Contracting Office staff verified that a copy of the accountable
                     property inventory file accompanied all property classified as accountable
                     property.

                 Billable Overhead

                 The Contracting Office staff performed some steps to verify billable overhead.
                 However, the written guidance did not describe the procedures required to
                 verify billable overhead. For example, the procedures do not -

                 •   require the verification of overhead calculations.

                 •   specify the number of IBM employees that the Contracting Office staff is
                     required to spot check on an invoice.

                 •   prescribe a minimum allowable variance between the billable overhead
                     cost on the invoice and the cost calculated by the Contracting Office staff
                     before reporting the issue.

                 •   provide guidance or instruction for verifying retroactive adjustments made
                     based on estimated and actual overhead rates, and DCAA audits.


Audit of Management Controls Over Automated Commercial Environment (ACE) Contractor Billings

                                            Page 5
                 General and Administrative (G&A) Expenses

                 CBP reviewers performed steps to verify G&A expenses that needed to be
                 included in the procedures, and other steps needed to contain more detail
                 guidance to reviewers. Below are examples.

                 •   CBP routinely verifies the mathematical accuracy of the G&A rate,
                     however the procedures did not include this step.

                 •   The procedures did not inform the reviewer that the G&A rate was subject
                     to annual revision once the actual G&A rate is determined by using the
                     IBM G&A expenses. This would require the reviewer to subsequently
                     review G&A costs to ensure that adjustments were made properly.

                 •   The procedures did not prescribe a minimum allowable variance between
                     the Contracting Office staff calculation of G&A and the invoice amount.

                 Fixed Contract Fees

                 The Invoice Review and Approval Procedures document does not contain any
                 reference to, or guidance for, the review of fixed fees. Neither the financial
                 nor the technical checklist addressed the verification of fixed fees. Fixed fee
                 rates ranged from 3% to 7.5% of the total cost on the invoice (except for travel
                 costs) in our sample of invoices. The fixed fee for one invoice in our sample
                 was $83,548.24. The fixed fee rates are negotiated by task order and are
                 described in the negotiation summary. At a minimum, the written procedures
                 should:

                 •   Assign responsibility for the verification of fixed fees to either the
                     Program Office or the Contracting Office.

                 •   Require the reviewer to verify the fixed fee rate on the invoice against the
                     negotiation summary.

                 •   Require the reviewer to determine the applicable formula from the
                     negotiation summary for the computation for the fixed fee.

                 Documentation of Invoice Reviews
                 CBP did not always maintain documentation of the work performed in an
                 invoice review. Reviewers used the checklists as a guide to reviewing
                 invoices but not all reviewers completed and documented the work performed
                 on the checklists. Therefore, we could not verify the work performed by
                 reviewers or determine whether the control procedures were effective or
Audit of Management Controls Over Automated Commercial Environment (ACE) Contractor Billings

                                            Page 6
                 consistently applied. The written procedures did not require reviewers to
                 document and maintain the work they performed to verify an invoice.
                 Completed checklists to document invoice reviews would provide
                 management with information on trends and systemic problems.

                 The written procedures include a financial review checklist and a technical
                 review checklist (See Appendix E, Invoice Checklist). Review checklists
                 provide spaces for the reviewer to enter the task order number, contract
                 number, invoice number, and invoice date. However, reviewers did not
                 complete the checklists and attach them to the invoice maintained in the
                 Contracting Office files. Without a completed checklist or other
                 documentation showing the work performed by the reviewer, we could not
                 determine whether the reviewers effectively verified the accuracy, reliability,
                 and completeness of contractor invoices before payment.

                 If the reviewers did not identify issues for the issues log, CBP had no record
                 of verification procedures that reviewers performed. For example, the
                 procedures require the technical reviewers to spot check the purchase of major
                 dollar equipment by comparing the item on the invoice to supporting detail
                 contained with the invoice. Unless a problem, concern or issue related to the
                 purchase of equipment was included in the issues log, no documentation
                 existed to prove that the reviewers verified any equipment purchases. At a
                 minimum, reviewers should document the specific major dollar equipment
                 that was verified. Another example is the verification of labor hours. The
                 financial review checklist requires the reviewer to spot check the labor hours
                 for one employee per vendor against the labor report. However, there was no
                 documentation that reviewers verified labor hours, unless a discrepancy
                 between the labor hours on the invoice and the labor hours on the labor report
                 was included on the issues log. At a minimum, CBP should have
                 documentation of the name of the employee that the reviewer spot-checked
                 and verified.

                 Research of Issues
                 CBP did not effectively research eCP’s responses to the issues log. As a
                 result, issues found during the invoice reviews were not completely resolved
                 and recurred on subsequent invoices. Additionally, CBP could have internally
                 resolved some of the issues identified on the issues log without requiring
                 eCP’s time and effort.

                 Contracting Office staff recorded issues identified during the invoice review
                 process on the issues log, which was then forwarded to eCP for explanation.
                 Issues included concerns such as, discrepancies between labor hours on the
                 invoice and labor hours in the Customs Labor and Ledger report, concerns
                 regarding labor overhead rates, and incorrect work packages or computations.
Audit of Management Controls Over Automated Commercial Environment (ACE) Contractor Billings

                                           Page 7
                 The Contracting Office and the Program Office staff accepted the
                 explanations from eCP and closed issues without further verification,
                 investigation, or follow-up. The Contracting Office acknowledged that they
                 have accepted eCP’s responses to the issues log without additional research
                 because there was a "push" to be sure the invoices got processed and paid
                 timely. The following three examples identify issues that needed further
                 research.

                 First, on two separate invoices, the Contracting Office could not verify the
                 labor hours for employees using the Customs Labor and Ledger Report and
                 included the names on the respective issue log. The eCP response stated that
                 the labor hours on the invoice exactly matched the Customs Labor and Ledger
                 Report and included an extract of the report as supporting documentation.
                 The Contracting Office accepted the response without further verification.
                 We asked the Contracting Office to verify eCP’s response for the two
                 employees as part of our sample in the testing of the effectiveness of internal
                 controls related to labor hours. The Contracting Office could not verify the
                 labor hours when comparing the labor hours on the invoice to the Customs
                 Labor and Ledger Report. To test the effectiveness of the labor hour
                 verification process, we judgmentally selected five employees from 15
                 invoices for a total of 75 employees and observed the Contracting Office
                 verify their labor hours. The Contracting Office was only able to verify the
                 exact number of labor hours for 13 of the 75 employees on the invoice by
                 comparing the invoice to a section of the Customs Labor and Ledger Report.
                 If CBP had verified eCP responses that hours matched back to the Customs
                 Labor and Ledger Report, CBP would have detected that they were not using
                 the correct section of the report. However, they continued to identify
                 differences with the labor hours and post them on the issues log. Research of
                 labor hour issues would have detected that CBP procedures to verify labor
                 hours were ineffective.

                 Second, further research into the cause of the discrepancies in the labor hours
                 might have alerted CBP management to an internal control design weakness.
                 Specifically, IBM prepares both the invoice and the Customs Labor and
                 Ledger Report from the same accounting system, essentially furnishing the
                 same information in two different formats (See Appendix D for IBM Systems
                 Diagram). The procedure performed by CBP only verifies the consistency
                 between the report and the invoice; it does not actually verify that the labor
                 hours were worked on this contract. Procedures that are unlikely to detect
                 misstatements or errors could add unnecessary cost.

                 Third, the Contracting Office staff questioned an overhead calculation for an
                 employee on the issues log. The invoice showed that the employee worked 61
                 hours during the period January 1 through February 1, 2005. eCP responded
                 with a breakdown of how they calculated the overhead amounts. The
Audit of Management Controls Over Automated Commercial Environment (ACE) Contractor Billings

                                           Page 8
                     breakdown reflected 39 labor hours for 2004 overhead rates and 22 hours for
                     2005 overhead rates. The breakdown of their computation supported the
                     amount on the invoice, but the Contracting Office staff did not investigate or
                     adequately resolve the following problems raised by eCP’s response.

                     •   If the employee worked 39 hours in 2004, then the period of performance
                         on the invoice was incorrect.

                     •   If the employee worked 39 hours in 2004 and 22 hours in 2005, then the
                         Customs Labor and Ledger Report would not support the invoice because
                         it would not show 61 hours for the employee during the period January 1
                         through February 1, 2005. Either the hours on the invoice were wrong or
                         the hours on the Customs Labor and Ledger Report were wrong.

                     •   If the employee worked the hours in 2004, then the Contracting Office
                         staff needed to ensure that they did not pay for those labor hours on a prior
                         invoice.

Conclusion
                     The weaknesses in the internal controls over the invoice review process
                     increase the risk of improper payments. To strengthen internal controls, CBP
                     needs to improve written procedures, better monitor the process, document the
                     review activities performed, and research the cause of discrepancies noted
                     during the review. This will allow management to ensure that reviewers for
                     all task orders effectively and consistently applied invoice review steps. In
                     addition, the fact that CBP plans to spend over a billion dollars on ACE over
                     the next four years represents an inherent risk for the invoice review process.
                     While DCAA incurred cost audits aid in reducing the risk, the last audit
                     conducted by DCAA reviewed costs from 2002.

Recommendations
                     We recommend that:

                     1. The Program Office Director streamline and strengthen the internal
                        controls over the invoice review process by:

                         •   eliminating redundant invoice review steps performed during the
                             technical and financial reviews,
                         •   ensuring consistency between reviews of task orders for each cost
                             element,
                         •   adequately researching the causes of problems noted in the issues logs,

    Audit of Management Controls Over Automated Commercial Environment (ACE) Contractor Billings

                                                Page 9
                        •   periodically monitoring the invoice review process to assure policies
                            and procedures are effectively followed, and
                        •   requiring that the activities performed in the review of invoices be
                            documented and retained with the invoice.

                     2. The Contracting Officer should request DCAA to conduct an incurred cost
                        audit for the ACE contractor.

Management Comments and OIG Analysis:
                     CBP concurred with the recommendations. DCAA is currently reviewing
                     IBM’s CY 2004 incurred costs. On July 20, 2006, CBP updated the Invoice
                     Review and Approval Procedure, the Invoice Financial Review Checklist, and
                     the Invoice Technical Review Checklist. Additionally:
                        •   CBP is monitoring invoice review activities to ensure consistency
                            between reviews of task orders;
                        •   CBP is tracking the number and type of questions generated by the
                            invoice review process to identify trends across task orders;
                        •   CBP has mandated that all associated invoice review documentation,
                            including each checklist, be completed and retained in an invoice
                            archive; and
                        •   CBP has appointed a government lead for ACE invoicing oversight,
                            who meets with IBM’s invoicing team on a bi-weekly basis to resolve
                            invoicing issues, including the causes of problems noted in the issues
                            logs.

                     The actions taken by CBP satisfy the intent of our recommendations.
                     Therefore, the recommendations in this report are considered closed.

Award and Incentive Fees
                     CBP adequately followed existing procedures and policies for monitoring,
                     evaluating and measuring contractor performance for payment of award fees
                     and product quality for payment of incentive fees. Our audit focused on the
                     application of the measurement criteria and did not include assessing CBP’s
                     measurement criteria or validating CBP’s performance measurements.

                     The chart below summarizes payments through March 2005. See Appendix F
                     for details.
                                                  Available (millions)            Percent
                                                  Amount         Earned  Forfeit  Paid
                     Award Fee (Periods 1-5)       $18.4         $4.0   $14.4     22 %
                     Incentive Fee (30 incentives) 13.5          11.0     2.5     81 %

    Audit of Management Controls Over Automated Commercial Environment (ACE) Contractor Billings

                                              Page 10
                 The Award fee amounts were paid based on performance ratings. The
                 contractor’s performance evaluation reports for five-performance rating
                 periods did contain adequate justifications to support the contractor’s ratings.
                 The general performance ratings include program management, cost, and
                 technical quality. CBP used a consultant to assist in managing the Award Fee
                 process for evaluating contractor’s performance. The consultant gathered
                 comments and tallied the rating results from Acquisition Directors, task order
                 staff, program level personnel and CBP management. Using the results, the
                 consultant develops the performance evaluation report for the Performance
                 Evaluation Board and the Fee Determination Official.

                 CBP properly tracked, monitored, and measured incentive fees in accordance
                 with the negotiated terms and verifiable measurement results. Incentive fees
                 may include, but are not limited to, specific system performance metrics,
                 milestones, service level, and cost savings. CBP used incentive fees to reward
                 the contractor for providing quality deliverables for specific task orders, that
                 CBP determined needed to be accomplished or sustained in order to improve
                 the program.




Audit of Management Controls Over Automated Commercial Environment (ACE) Contractor Billings

                                           Page 11
Appendix A
Purpose, Scope and Methodology


                     The overall objective of the audit was to assess the internal controls related to
                     the review and approval of ACE contractor invoices. The audit focused on
                     two specific questions: (1) Were the procedures, processes, and internal
                     controls adequate to verify the accuracy, reliability, and completeness of
                     contractor invoices prior to payment? (2) Was the process for evaluating the
                     quality of contractor performance and related award and incentive fee
                     payments effective?

                     This audit was performed at various DHS locations within the Washington,
                     D.C. area. During our audit, we selected and reviewed 15 eCP invoices from
                     December 2004 to April 2005 with a total value of $22.3 million and three (3)
                     Robbins-Gioia invoices from March 2005 to May 2005 with a total value of
                     $3.9 million. The audit included reviewing the Program Office policies,
                     procedures, and controls, testing the controls by sampling 15 eCP invoices,
                     and evaluating the documentation of the results of invoice reviews and
                     approvals.

                     We assessed CBP’s internal controls for the invoice review and approval
                     process. The internal controls for the review of an invoice serve to protect the
                     Government’s interest by ensuring that payment is commensurate with the
                     work performed. We performed these steps to assess internal controls:
                        •   evaluated CBP’s policies and procedures used by reviewers for
                            relevant internal controls,
                        •   observed invoice reviews performed by CBP for five major cost
                            elements,
                        •   evaluated documentation supporting reviews to determine if
                            transactions were properly documented, and
                        •   reviewed documentation provided by the contractor to support
                            invoiced amounts

                     Our examination specifically tested the invoice review and approval system's
                     internal control procedures associated with the following control activities:
                        •   Management Reviews for Actual Performance
                        •   Policies and Procedures
                        •   Implementation of Policies and Procedures
                        •   Accurate and Timely Recording of Transactions and Events
                        •   Appropriate Documentation of Transactions and Internal Control

                     We evaluated the Program Office invoice and approval system using the
                     applicable requirements contained in the Federal Acquisition Regulation, and
                     Standards for Internal Controls in the Federal Government.


    Audit of Management Controls Over Automated Commercial Environment (ACE) Contractor Billings

                                               Page 12
Appendix A
Purpose, Scope and Methodology


                     We reviewed the pertinent plans and documents related to the design,
                     development, implementation, documentation and effectiveness of the ACE
                     Invoice Review Process, including:
                        •   Invoice Review and Approval Process Version 1.0
                        •   Invoice Review and Approval Procedure Version 3.0
                        •   Funds Management Process Version 1.0
                        •   eCP Invoicing Process Version 1.2
                        •   Change Request Process
                        •   eCP ACE Contract
                        •   Stratecon Contract Requirements

                     As of May 5, 2005, 21 task orders had been issued for ACE, of which eight
                     were active. We judgmentally selected three of the eight task orders based on
                     the following criteria:
                        •   One Task Order (TO 17) where a portion of the invoice was
                            disallowed.
                        •   The highest total dollar amount on the most recent invoices (TO 19)
                        •   A task order related to the next ACE Release, Release 5 (TO 21)

                     We gathered data on the invoice review processes and procedures through
                     structured interviews, document analysis, and observation of operations. We
                     selected the 5 most recently processed and paid invoices for each of the 3 task
                     orders to test the effectiveness of controls for General and Administrative
                     Fees, Overhead Rate and Fixed Fees.

                     To test the effectiveness of the control procedure for the verification of labor
                     hours, we judgmentally selected five (5) employees from each of the 15
                     invoices for 75 employees. There were 32 IBM employees and 43
                     subcontractor employees.

                     Inventory purchases are processed through task order 19. To test the
                     effectiveness of the control procedures for the verification of inventory
                     purchases, we examined inventory items on the five invoices which contained
                     inventory purchases.

                     We conducted our audit between May 2005 and May 2006 under the authority
                     of the Inspector General Act of 1978, as amended, and according to generally
                     accepted government auditing standards.




    Audit of Management Controls Over Automated Commercial Environment (ACE) Contractor Billings

                                               Page 13
Appendix B
Management Comments


                     x




    Audit of Management Controls Over Automated Commercial Environment (ACE) Contractor Billings

                                              Page 14
Appendix B
Management Comments




    Audit of Management Controls Over Automated Commercial Environment (ACE) Contractor Billings

                                              Page 15
Appendix B
Management Comments




    Audit of Management Controls Over Automated Commercial Environment (ACE) Contractor Billings

                                              Page 16
Appendix B
Management Comments




    Audit of Management Controls Over Automated Commercial Environment (ACE) Contractor Billings

                                              Page 17
Appendix C
Invoice Procedure Steps




     Audit of Management Controls Over Automated Commercial Environment (ACE) Contractor Billings

                                               Page 18
Appendix D
IBM System Diagram




                     The following diagram illustrates the two databases that feed labor hour
                     information to the IBM accounting system and the two outputs.


              IBM Labor                                                         Invoice
               Claiming                                                   Including IBM and
               Database                                                   Subcontractor labor
                                           ACCOUNTING                           backup
                                             SYSTEM           Outputs
              Subcontract
                Labor                                                     Customs Labor and
               Claiming                                                     Ledger Report
               Database




                     Each invoice from eCP includes documentation that provides details on the
                     charges for IBM and subcontract labor. The detailed documentation consists
                     of tables that identify the employee, the workpackage (assignment), period of
                     performance, and number of hours worked during the period of performance.

                     Additionally, the IBM accounting system produces a weekly labor report
                     entitled the Customs Labor and Ledger Report and IBM posts the report on
                     the CBP intranet. This labor report details the hours charged by week to the
                     ACE program by employee name and workpackage (assignment).

                     CBP reviewers perform spot checks of labor hours on an invoice by
                     judgmentally selecting an IBM or subcontract employee from the detailed
                     documentation in the invoice package and comparing the number of hours on
                     the invoice to the number of labor hours in the Customs Labor and Ledger
                     Report.




    Audit of Management Controls Over Automated Commercial Environment (ACE) Contractor Billings

                                              Page 19
Appendix E
Invoice Review Checklist




     Audit of Management Controls Over Automated Commercial Environment (ACE) Contractor Billings

                                               Page 20
Appendix E
Invoice Review Checklist




     Audit of Management Controls Over Automated Commercial Environment (ACE) Contractor Billings

                                               Page 21
Appendix F
Award and Incentive




                                            AWARD FEE HISTORY
                   Award                      Available
                   Period         Rating        Pool *             Awarded            Forfeit


                     1             74%          $1,000,000             $740,000        $260,000
                     2            Failing        3,000,000                   -         3,000,000
                   2 and 3         56%           8,500,000                   -         8,500,000
                     4             64%           2,100,000                   -         2,100,000
                     5             87%           3,800,000             3,300,000           500,000


                   Totals                      $18,400,000           $4,040,000      $14,360,000
                                                                      22%               78%
                          *Includes rollover amounts from previous periods

                                  Completed Incentives
           Task                                                                  Percent     Percent
           Order          Available          Earned             Not Paid          Paid       Not Paid

             4            $      484,488 $       484,488    $             -         100.0%        0.0%
             8                 3,263,898       2,962,615            301,283          90.8%        9.2%
             9                   818,931         614,198            204,733          75.0%       25.0%
             16                2,144,719       1,797,388            347,331          83.8%       16.2%
             17                2,747,544       2,546,311            201,233          92.7%        7.3%
            17.1                  27,120          27,120                    -       100.0%        0.0%
             19                3,689,010       2,210,616          1,478,394          59.9%       40.1%
             20                  112,082         112,082                -           100.0%        0.0%
             21                  239,582         239,582                -           100.0%        0.0%

                      $       13,527,374 $ 10,994,400 $          2,532,974          81.3%        18.7%



                                             As of March 2005




     Audit of Management Controls Over Automated Commercial Environment (ACE) Contractor Billings

                                                      Page 22
Appendix G
Major Contributors to this Report


                  George Tabb, Director, Trade Operations and Security Division
                  Gene Wendt, Audit Manager
                  Carlos Berrios, Auditor In Charge
                  David Porter, Auditor
                  DeWayne Bailey, Auditor
                  Michael Lugo, Auditor




     Audit of Management Controls Over Automated Commercial Environment (ACE) Contractor Billings

                                               Page 23
Appendix H
Report Distribution


                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      Assistant Secretary for Policy
                      Assistant Secretary for Public Affairs
                      Assistant Secretary for Legislative and Intergovernmental Affairs
                      General Counsel
                      Executive Secretary
                      Chief Privacy Officer
                      Director, GAO/OIG Liaison

                      Customs and Border Protection

                      Commissioner, Bureau of Customs and Border Protection
                      CBP OIG Liaison
                      Director, Cargo Systems Program Office
                      ACE Contract Officer

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as appropriate




     Audit of Management Controls Over Automated Commercial Environment (ACE) Contractor Billings

                                               Page 24
Appendix H
Report Distribution




       Additional Information and Copies
       To obtain additional copies of this report, call the Office of Inspector General
       (OIG) at (202) 254-4100, fax your request to (202) 254-4285, or visit the OIG
       web site at www.dhs.gov/oig.


       OIG Hotline
       To report alleged fraud, waste, abuse or mismanagement, or any other kind of
       criminal or noncriminal misconduct relative to department programs or
       operations, call the OIG Hotline at 1-800-323-8603; write to DHS Office of
       Inspector General/MAIL STOP 2600, Attention: Office of Investigations -
       Hotline, 245 Murray Drive, SW, Building 410, Washington, DC 20528, or email
       DHSOIGHOTLINE@dhs.gov. The OIG seeks to protect the identity of each
       writer and caller.




           DO NOT DISTRIBUTE WITHOUT OIG AUTHORIZATION
                               Draft Report
                         Payments to ACE Contractor

                                     Page 25
